                                 NATIONAL SCIENCE FOUNDATION
                                      4201 Wilson Boulevard
                                    ARLINGTON. VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL




  MEMORANDUM


  DATE:             February 14,2005

  TO:               Warren Washington, Ph.D.


  FROM:              4
                    C air, National Science Board
                       L&dL 4tI     h,&\
                    De orah H. Cureton
                    Associate Inspector General for Audit

  SUBJECT:          Audit of the National Science Board Conzpliance with the Govemnzer?t in
                    the Sunshine Act for 2004
                    OIG Report Number 05-2-007

  Attached please find the final report on our annual audit of the National Science Board's
  conlpliance with the Government in the Sunshine Act for 2004, which we have also
  transmitted to the Congress, in accordance with the National Science Foundation
  Authorization Act of 2002. We received the Board's response to the official draft of the
  report and have included it, in full, as an appendix to this report.

  The Board continues to demonstrate a clear intent to provide for greater access to, and
  increased openness in its meetings, but continues to experience some challenges in
  meeting many of the procedural requirements of the Sunshine Act. The Board has
  developed a time-phased action plan and is addressing our earlier recon~n~endations  that
  it develop fornlal policies and procedures for conlplying with the Sunshine Act that
  define the various participants' roles and responsibilities for complying w ith the Act's
  procedural requirements. This year, while we have provided the Board with several
  suggestions for improvements, we have made no new formal reconlmendations. As such,
  we do not require a response to this report.
I would like to express my appreciation for the courtesies and assistance provided by the
staff of the National Science Board Office during the audit. If you have any questions,
please contact Karen Scott at (703) 292-7966 or Kristen Stagliano at (303) 3 12-7615.


Attachment

cc :   Dr. Christine Boesz
       Dr. Michael Crosby
       Ms. Karen Scott
       Ms. Melinda Kirsch
       Ms. Kristen Stagliano
          Audit of
   National Science Board
     Compliance with the
Government in the Sunshine Act
          for 2004



  National Science Foundation
  Office of Inspector General


       February 14, 2005
         OIG 05-2-007
Introduction
Background              The National Science Board (Board) is the governing entity
                        of the National Science Foundation (NSF), an independent
                        Federal agency established by the National Science
                        Foundation Act of 1950. The Board is composed of 24 part-
                        time, Presidentially appointed members, and the NSF
                        Director, who are selected on the basis of their eminence in
                        research or public affairs.

                        The Board has responsibility for providing national science
                        policy advice to the President and to the Congress and for
                        acting as the governing board of the NSF. The Board
                        conducts its business during two-day meetings, which are
                        generally held five to six times a year. Much of the Board’s
                        analysis and background work in preparation for Board
                        discussion and action is done through its committees.

                        Currently, the Board has five standing committees:
                        Executive, Audit and Oversight, Education and Human
                        Resources, Programs and Plans, and Strategy and Budget.
                        These committees, and other subcommittees and task
                        forces, generally meet during the same two-day period as
                        the full Board. In addition, the committees occasionally meet
                        at other times throughout the year on an as-needed basis.

The Government in the   In the early 1970s, partially in response to the Watergate
Sunshine Act            scandal, Congress enacted the Government in the Sunshine
                        Act along with other anti-secrecy legislation. Congress
                        intended the Sunshine Act to open the government’s
                        deliberation processes to public scrutiny.

                        The Act applies to agencies “headed by a collegial body
                        composed of two or more individual members . . . and any
                        subdivision thereof authorized to act on behalf of the
                        agency,”1 and covers some 50 Federal agencies, including
                        the National Science Board. The Act requires that “every
                        portion of every meeting of an agency shall be open to public
                        observation”2 with ten narrow exemptions for discussions of
                        material that are likely to disclose:

                                  (1) National Defense and foreign policy;
                                  (2) Internal personnel rules and practices;

                        1
                            5 U.S.C. §552b(a)(1).
                        2
                            Id. at §552b(b).


                                                                                Page 1 of 17
                                   (3) Statutory exemptions;
                                   (4) Proprietary information;
                                   (5) Accusation of crime or formal censure;
                                   (6) Personal privacy;
                                   (7) Investigatory records;
                                   (8) Financial institution reports;
                                   (9)(A) Financial speculation and stability;
                                   (9)(B) Frustration of proposed agency action; and
                                   (10) Issuance of subpoena, participation in civil action
                                   or proceeding, or formal agency adjudications.3

                         While the Act does not require an agency to hold meetings, it
                         does contain a number of procedural requirements that must
                         be followed when an agency decides to meet for either a
                         closed or open session. First, at least one week prior to
                         each meeting, the agency must make a public
                         announcement regarding the date, time, and place of the
                         meeting and whether the meeting is to be open or closed.

                         Additionally, to close all or a portion of a meeting, an agency
                         must vote to do so and make publicly available a written
                         copy of the vote and a “full written explanation of its action
                         closing the portion [of the meeting].”4 Also, for a closed
                         meeting, the agency’s General Counsel must publicly certify
                         that the meeting may be closed under one of the Act’s
                         exemptions. Finally, the agency must annually report to the
                         Congress: any changes in the agency’s policies and
                         procedures under the Act; a tabulation of the number of
                         meetings held, exemptions applied, and the days of public
                         notice provided; a brief description of litigation or formal
                         complaints concerning the implementation of the Act; and
                         any changes in law that have affected the open-meeting
                         responsibilities of the agency.

Open Meetings of the   In accordance with the Government in the Sunshine Act, the
National Science Board National Science Board has traditionally opened its full-
                       Board meetings to the public. However, prior to 2003, the
                       Board did not provide public access to the meetings of its
                       committees, subcommittees, taskforces, or other
                       subdivisions.

                         The NSF Authorization Act of 2002, which became effective
                         in December 2002, contained administrative amendments to
                         the National Science Foundation Act pertaining to Board

                         3
                             5 U.S.C. §552b(c).
                         4
                             Id. at §552b(d)(3).


                                                                                Page 2 of 17
                    meetings. As part of these amendments, the Congress
                    specified that in addition to meetings of the full Board, “all of
                    its subcommittees, and task forces (and any other entity
                    consisting of members of the Board and reporting to the
                    Board) shall be subject to [the Sunshine Act].”5
                    Consequently, during 2003, the Board opened to the public
                    for the first time, its committee and other subdivision
                    meetings.

Audit Requirement   In keeping with its interest in seeing greater openness in
                    Board meetings, the Congress placed another requirement
                    in the NSF Authorization Act directing that the NSF Office of
                    Inspector General (OIG) “conduct an annual audit of the
                    compliance by the Board with [the Sunshine Act].”6 The
                    audit is “to examine the proposed and actual content of
                    closed meetings and determine whether the closure of the
                    meetings was consistent with [the Act].”7 In a report
                    submitted to the Congress by February 15th of each year,
                    the OIG is to make “recommendations for corrective actions
                    that need to be taken to achieve fuller compliance with [the
                    Sunshine Act] and recommendations on how to ensure
                    public access to the Board’s deliberations.”8

                    This is the second annual audit of the Board’s Sunshine Act
                    activities. Last year’s audit found a clear intent on the part of
                    the Board to provide for greater access to and increased
                    openness in its meetings. With respect to the Board’s
                    decisions to close meetings, last year we found that the
                    Board properly closed its meetings consistent with the
                    exemptions contained in the Sunshine Act. However, we did
                    note some challenges the Board faced in meeting the Act’s
                    numerous procedural requirements and recommended that
                    the Board develop and implement formal policies and
                    procedures that define the various participants’ roles and
                    responsibilities for complying with the Act’s numerous
                    procedural requirements. The Board agreed with last year’s
                    audit findings and prepared a corrective action plan for
                    implementing our recommendations.




                    5
                      Pub. L. No. 107-368 (2002).
                    6
                      Id.
                    7
                      Id.
                    8
                      Id.


                                                                          Page 3 of 17
Objectives, Scope, and Methodology

                 In keeping with the statutory audit requirement, the
                 objectives of our audit were to:

                    •   Determine whether the Board and its subdivisions are
                        in compliance with the procedural requirements of the
                        Government in the Sunshine Act; and

                    •   Determine whether the Board’s closures of meetings
                        were consistent with the exemptions contained in the
                        Government in the Sunshine Act.

                 Our audit covered meetings of the Board held during the
                 period January through December 2004. During this
                 timeframe, the Board conducted 92 separate meetings of
                 which 38, or 41 percent, were closed. For the purposes of
                 this audit, we counted each of the various committee,
                 subcommittee, and task force meetings separately, although
                 they typically occur during the same two-day time period.
                 Also, we considered a committee meeting with both an open
                 and closed portion on the same day as two separate
                 meetings: one open and one closed. However, we
                 considered a committee meeting that met for more than one
                 non-consecutive time frame during a single day, and was
                 either entirely open or entirely closed, as one meeting. For
                 example, an open Task Force on Polar Issues meeting from
                 1:00pm to 3:00pm, with a closed portion from 1:30pm to
                 2:00pm would count as two meetings. Likewise, an open
                 Education and Human Resources Committee meeting from
                 9:00am to 10:00am and again from 1:00pm to 2:00pm on the
                 same day, with no closed session, would count as one
                 meeting.

                 To determine whether the Board complied with the
                 procedural requirements of the Act, we met with agency
                 personnel, and gathered and reviewed documentation for all
                 meetings to determine whether the Board met the Act’s
                 requirements for public notice. For each of the 38 closed
                 meetings, we reviewed documentation to determine whether
                 the Board met the applicable Act requirements, including the
                 vote to close and General Counsel certification. Finally, we
                 reviewed the Board’s most recent annual report to the
                 Congress, submitted in 2004 for calendar year 2003, to




                                                                    Page 4 of 17
determine whether it complied with the Sunshine Act’s
reporting requirements.

To determine whether the Board closed its meetings in
accordance with the Sunshine Act exemptions, we reviewed
a sample of 15 of the 38 closed-meeting transcripts and
compared them with meeting agendas, General Counsel
certifications, and the Board’s explanations for closing
meetings.

We conducted our work between October 2004 and January
2005 in accordance with generally accepted government
auditing standards.




                                                 Page 5 of 17
Results of Audit
                   Overall, we continued to find a clear intent on the part of the
                   Board to provide for greater access to and increased
                   openness in its meetings. With respect to the Board’s
                   decisions to close meetings, we found that the Board
                   properly closed its meetings consistent with the exemptions
                   contained in the Sunshine Act.

                   However, we also found that during 2004, the Board again
                   experienced some challenges in meeting all of the many
                   procedural requirements of the Sunshine Act, especially for
                   those meetings that occurred outside of the regular two-day
                   meeting schedule. We attributed many of these procedural
                   challenges to the need for formal policies and procedures
                   that were recommended in last year’s audit and which would
                   help provide the Board with a structure and protocol for
                   handling the many Sunshine Act issues that arise in the daily
                   conduct of Board operations. Such policies and procedures,
                   once implemented, would ensure greater consistency and
                   accountability in complying with the Sunshine Act’s
                   requirements. Consequently, we reiterate last year’s
                   recommendation that the Board develop, implement, and
                   provide training on such policies and procedures.




                                                                        Page 6 of 17
Decisions to Close
Meeting Closure is   The overall presumption of the Sunshine Act is in favor of
Consistent with      open meetings. This is consistent with the Act’s underlying
Sunshine Act         policy that “the public is entitled to the fullest practicable
Exemptions           information regarding the decision-making processes of the
                     Federal Government.”9 However, the Sunshine Act
                     recognizes that circumstances exist in which public
                     disclosure of a particular matter may not be in the
                     government’s best interest. As such, the Act has built-in
                     exceptions to its open meeting requirement. Although the
                     starting point for any meeting is always openness, an
                     agency may choose to close a meeting if the discussion is
                     likely to disclose information contained in one of the Act’s ten
                     exemptions.

                     During 2004, the Board closed 38, or 41 percent of its 92
                     total meetings for reasons involving 8 of the 10 exemptions
                     contained in the Sunshine Act. Discussions in closed
                     meetings involved the following topics:

                           •   future budgets (exemption (3)),
                           •   grants and contracts (exemptions (4), (6), and (9)(B)),
                           •   specific personnel matters (exemptions (2) and (6)),
                               and
                           •   briefings on active investigations and enforcement
                               actions (exemptions (5), (7), and (10)).

                     Our review of a sample of 15 of the 38 closed meetings
                     found that the Board properly closed these meetings
                     consistent with the Sunshine Act’s exemptions. Discussions
                     held during these closed sessions followed the planned
                     agendas for the meetings and pertained to topics that the
                     Board had decided were covered by one or more of the Act’s
                     exemptions.




                     9
                         Pub. L. No. 94-409, 90 Stat. 1241, at §2 (1976).


                                                                            Page 7 of 17
Procedural Compliance
More Consistent          The Sunshine Act is replete with detailed procedural
Compliance with          requirements that must be followed for both open and closed
Procedural               meetings. The Board has shown a clear intent to comply
Requirements is          with these requirements and has been improving its
Needed                   procedural practices. For example, the Board now provides
                         much more information to the public regarding its meetings
                         via its website. This information is very useful in keeping the
                         public informed of Board activities and is clearly in keeping
                         with the intent of the Sunshine Act. However, the Board is
                         continuing to experience some challenges and difficulties in
                         ensuring that all of the various procedural requirements are
                         met on a consistent basis.

Untimely and Limited     The Sunshine Act requires the agency to publicly announce
Information Disseminated the date, time, and place of a meeting and whether the
on Ad Hoc Meetings       meeting is open or closed. The announcement is to be
                         made at least one week before the actual meeting date. In
                         74 of its 92 meetings (80 percent), the Board met this
                         requirement. For the remaining 18 meetings, 8 related to a
                         single announcement for the Board’s regularly scheduled 2-
                         day session in May 2004. For seven of these eight
                         meetings, the public announcement was one day late, and
                         one meeting was added to that session for which the notice
                         was four days late.

                         Of greater concern is the lack of timely public notice
                         provided for the other 10 committee meetings, which
                         occurred on an ad hoc basis throughout the year. Of the 15
                         ad hoc meetings held during 2004, only 5 (33 percent) met
                         the public notice requirement. For 7 of the remaining 10 ad
                         hoc meetings, the notice was made 4 days in advance or
                         less; and for 3, no public notice was given.


                                100
                                 80
                                 60
                                                                               Late
                                 40
                                                                               On Time
                                 20
                                  0
                                      Total    Regularly   Ad Hoc
                                               Scheduled




                                                                             Page 8 of 17
                          Furthermore, for closed meetings, the Sunshine Act requires
                          an agency to make publicly available documentation of the
                          decision and vote to close and General Counsel
                          certifications of the decision to close. While the Board made
                          public information regarding its votes to close meetings for
                          all 30 of its closed meetings that occurred during the regular
                          two-day sessions, it did not make this information public for
                          any of the eight ad hoc meetings that were closed. The
                          listings on the Board’s website for these ad hoc meetings
                          include only an agenda.

Closed Meeting            While it has improved since 2003, the Board is still
Transcripts Not           experiencing some difficulties maintaining complete
Consistently              transcripts of closed meetings. The Sunshine Act requires
Maintained                the Board to maintain a complete transcript or electronic
                          recording of all closed meetings. During 2004, the Board
                          met this requirement for 35 of its 38 closed meetings. One
                          of the missing transcripts was for one of the closed ad hoc
                          meetings.

Annual Report to          The Sunshine Act requires the Board to submit an annual
Congress Not Accurate     report to the Congress on certain aspects of its open
                          meeting activities, including a tabulation of the number of
                          meetings, the number of days of public notice given for each
                          closed meeting, and the exemptions applied to closed
                          meetings.

                          The Board’s report on its 2003 meetings, submitted to the
                          Congress in January 2004 met all of the statutory
                          requirements, however, it did not accurately report on the
                          public notice requirement. The Board’s annual report states
                          that, “all [2003 closed] meetings were [publicly] posted at
                          least one week prior to the meeting.” However, our audit of
                          2003 meetings, dated February 13, 2004, found that the
                          Board fully met the public notice requirement for only 54
                          percent of the Board’s total meetings.10

Formalized Procedures We believe that many of these challenges and difficulties
Can Help Ensure       experienced by the Board in complying with the Sunshine
Compliance            Act are the result of a lack of formal policies and procedures.
                      In our 2003 audit of the Board’s compliance with the Act, we
                      recommended that the Board develop such formal policies
                      and procedures in order to address these procedural gaps in

                          10
                            Our audit reported on the public notice requirement for all meetings,
                          not just closed meetings. A review of last year’s data shows that 17 of
                          the 30 closed meetings in 2003 (57%) met the public notice requirement.


                                                                                     Page 9 of 17
compliance. The Board responded positively to our audit
recommendations and agreed to develop and implement
formal policies during 2004. However, the Board has not yet
developed this much-needed guidance. Currently, the Board
is in the process of hiring its own legal advisor who will be
responsible for Sunshine Act compliance, among other
things, and is expected to develop this formal policy.
Consequently, the Board is expecting a delay in the
implementation of this guidance to some time in the first half
of 2005.

The impact of the delay in developing and implementing
these policies and procedures is more than simply not
having a few documents available on a website. The impact
of operating without these policies and procedures is
significant because it can affect both the Board’s level of
openness and its access to information. By providing more
complete information regarding upcoming meetings and
votes and reasons for closing meetings, the Board can better
fulfill the Sunshine Act’s objective of an open government
that is transparent and accountable to the public taxpayer.
Formal policies and procedures help ensure that the Board
has a structure and process for deciding on Sunshine Act
matters, for making information on its activities known and
accessible by the public, and for avoiding issues such as
insufficient public notice or missing transcripts of closed
meetings.

Formal policies and procedures can also help the Board
ensure that it is getting all of the information that it needs in
order to effectively conduct its role of oversight of NSF
activities. When NSF discovers issues that need to be
raised to the Board, there is currently no formal and
recognized protocol in place for ensuring that these issues
come to the Board in a timely and organized manner with the
proper level of public involvement. This was evidenced in a
recent situation where a request to add agenda items arose
within NSF just a few days before the Board meeting.
Without a protocol for adding an item to an existing Board
agenda, information may not have been shared with those in
the best position to ensure that Sunshine Act procedures
were followed. Moreover, the Board may not have had timely
access to the best information on whether to hear these last-
minute or ad hoc issues in open or closed sessions or to
ensure that the appropriate NSF personnel were available to
provide information for the Board’s discussion. Formal



                                                    Page 10 of 17
                  policies and procedures can ensure that all necessary
                  individuals, such as the Board’s Executive Officer, are
                  involved in the agenda-setting and decision-making
                  processes without limiting the flow of information between
                  NSF and the Board.

                  The requirement to maintain complete transcripts, coupled
                  with the public notice requirement, ensures that the public is
                  aware of meetings that occur behind closed doors, and is
                  provided access to those meetings through the availability of
                  redacted versions of transcripts. Without proper notice and
                  complete transcripts of closed meetings, this information
                  cannot be made available and raises potential concerns
                  about the transparency of the Board’s operations. Having
                  formal policies and procedures can help the Board ensure
                  greater openness by providing a method for consistently
                  making information regarding Board activities available to
                  the public.

Recommendations   In light of this crucial need for formal policies and
                  procedures, we once again recommend that the Executive
                  Officer of the National Science Board:

                  •   Develop formal policies and procedures to address
                      compliance with the procedural requirements of the
                      Sunshine Act. The guidance should clearly describe all
                      of the procedural requirements for both open and closed
                      meetings, and should define the various roles and
                      responsibilities of both NSF and Board members and
                      staff involved in Sunshine Act compliance. Additionally, it
                      should detail the necessary time frames within which
                      activities must occur. The guidance should specifically
                      address those requirements for which the Board has had
                      difficulty meeting over the past two years, such as timely
                      public notice and timely production of the Board vote and
                      explanation to close, especially for ad hoc meetings. It
                      may be appropriate to include in such guidance a sample
                      calendar for the events that must both precede and follow
                      a meeting, and a method such as a detailed checklist for
                      ensuring those dates are met. These procedures should
                      also include provisions for keeping the Board’s Executive
                      Officer informed of potential changes to upcoming
                      meetings so that he can ensure compliance with the Act’s
                      procedural requirements.




                                                                     Page 11 of 17
•   Provide training to all affected staff members, both within
    the Board office and NSF, on the new policies and
    procedures and Sunshine Act compliance in general.
    Such training will ensure that individuals who are
    responsible for and support compliance activities
    understand both the nature of those activities as well as
    their importance to Board accountability and openness.




                                                   Page 12 of 17
Other Suggestions for Improvement
                 When developing its formal policies and procedures for
                 Sunshine Act compliance, the Board may wish to include
                 procedures to address the following specific gaps in
                 compliance. While some of these issues may seem minor
                 and do not necessarily detract from the level of openness
                 that the Board is providing, addressing them will allow the
                 Board to be more fully compliant with the Act’s requirements.

                 First, the Sunshine Act requires that the Board document its
                 votes to close meetings and make them publicly available,
                 including documentation of each member’s vote on the
                 question. Currently, while the Board makes most of this
                 information publicly available, its public information does not
                 reflect each member’s vote on the question. However, this
                 can be easily remedied within the Board’s current public
                 notice practices. The Board currently provides
                 documentation of its votes to close as part of its Major
                 Actions and Approvals memo posted to its website following
                 each two-day meeting. This memo typically includes a
                 statement that “the Board approved a resolution to close
                 portions of” its upcoming meeting. By slightly changing this
                 statement to “the Board unanimously approved” and by
                 including a list of Board members present for this vote, the
                 Board can quickly become fully compliant with this
                 procedural requirement.

                 Second, the Sunshine Act requires that complete transcripts
                 be made of all closed meetings and that redacted versions of
                 these transcripts be made available, upon request, to the
                 public. If complete written transcriptions of recorded
                 meetings are to be available to the public, they must disclose
                 the identity of each speaker. However, the written
                 transcriptions that the Board does have do not identify each
                 speaker. Rather, they typically include a list of members
                 present for the meeting and then refer to each speaker as
                 either “MS” (Male Speaker) or “FS” (Female Speaker). We
                 recognize that it is difficult during lively discussions to
                 continuously ask members to identify themselves every time
                 they speak. However, in developing its new policies and
                 procedures, the Board should strive to develop a method for
                 identifying speakers in its written closed-meeting transcripts.
                 Perhaps the Board could involve the Executive Secretary of
                 each respective committee in this process as they are



                                                                    Page 13 of 17
present during these meetings and may be able to keep a
better record of speakers’ identities.

Finally, with respect to closed-meeting transcripts, the Board
can significantly enhance its level of openness by providing
redacted versions of closed-meeting transcripts on its
website. Currently, the Board’s policy is to provide such
versions of transcripts upon request from a member of the
public. However, the Sunshine Act does not require that a
member of the public make such a request. Rather, the Act
states that redacted versions of closed-meeting transcripts
are to be made “promptly available to the public, in a place
easily accessible to the public.11 By providing this
information on its website, the Board could expand its level
of openness and comply with not only the letter of the law,
but also its spirit. At the very least, the Board could provide
notice to the public on its website that redacted transcripts of
closed meetings are available upon request.




11
     5 U.S.C. §552b(f)(2).


                                                    Page 14 of 17
Agency Response

                  The National Science Board generally agreed with our
                  comments. The Board’s response is included in its entirety
                  as an appendix to this report.




                                                                  Page 15 of 17
APPENDIX




Page 16 of 17
APPENDIX




Page 17 of 17
